TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Revised Private Debt Collection Request
                 for Quotation Adequately Addressed Prior
                Deficiencies in the Solicitation Methodology



                                             April 2006

                                 Reference No: 2006-10-078




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   April 28, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Revised Private Debt Collection Request for
                                 Quotation Adequately Addressed Prior Deficiencies in the Solicitation
                                 Methodology (Audit # 200610016)

 This report presents the results of our review of the revised Private Debt Collection (PDC)
 Request for Quotation (RFQ). The overall objective of this limited-scope review was to
 determine whether the revised RFQ and associated procurement selection criteria adequately
 addressed the deficiencies cited by the United States Court of Federal Claims. We did not
 review the bid evaluations or the selection of the contractors for this program; accordingly, we
 do not express an opinion on such.
 This was a special, limited-scope audit that, together with an ongoing series of companion audits
 conducted by the Office of Audit’s Small Business and Corporate Programs and Information
 Systems Programs Business Units, provides coverage of a key initiative for which the Treasury
 Inspector General for Tax Administration committed resources as a high priority.

 Synopsis
 On October 22, 2004, the President signed the American Jobs Creation Act of 20041 to permit
 private collection agencies (PCA) to help collect Federal tax debts. The purpose of the PDC
 program is to help reduce the significant and growing number of uncollectible cases and enable
 the Internal Revenue Service (IRS) to better focus existing resources on more difficult cases.
 The IRS issued a detailed RFQ for solicitation of debt collection services in support of the PDC


 1
     Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                               The Revised Private Debt Collection Request for
                              Quotation Adequately Addressed Prior Deficiencies
                                       in the Solicitation Methodology


program on April 25, 2005. However, this RFQ was canceled after the United States Court of
Federal Claims filed an order on July 25, 2005, informing the IRS it intended to enjoin the
solicitation. The order ruled that the IRS’ restriction of the solicitation only to vendors with
current Federal Government debt collection task orders was arbitrary and capricious. The IRS
subsequently revised the RFQ and reissued it on October 14, 2005.
Overall, the revised RFQ adequately addressed the deficiencies cited by the United States Court
of Federal Claims. The IRS deleted the requirement that PCAs must have a current Federal
Government debt collection task order to be eligible for the solicitation. We did not identify any
other restrictions in the RFQ which would have unnecessarily limited the procurement process.
Further, the revised RFQ was reviewed by the IRS’ Office of Procurement Policy Quality
Assurance Branch and General Legal Services staff as required by IRS procurement procedures.
Also, the scoring criteria and review methodology documented in the evaluation plan were
consistent with the revised RFQ and similarly did not
contain any restrictions which would have unnecessarily
                                                                 …the evaluation criteria and
limited the procurement process. The selection evaluation      process, if rigorously followed,
factors and their relative importance were clearly outlined     fairly applied, and adequately
in the revised RFQ and were consistent with the Federal        documented, should provide a
Acquisition Regulation.2 In our opinion, the evaluation        reasonable basis for selecting
criteria and process, if rigorously followed, fairly applied, highly  qualified vendors that will
                                                                  meet the needs of the PDC
and adequately documented, should provide a reasonable                     program.
basis for selecting highly qualified vendors that will meet
the needs of the PDC program. We briefed the IRS on the
interim results of our review on February 2, 2006.
The IRS awarded contracts to three PCAs on March 9, 2006, under the terms of the revised RFQ.
The IRS planned to begin delivering delinquent tax account cases to the selected PCAs by
July 2006. However, on March 23, 2006, the IRS announced it had issued stop-work orders to
the three PCAs after two unsuccessful bidders filed bid protests with the Government
Accountability Office.
The Treasury Inspector General for Tax Administration plans to continue evaluating the
implementation of this initiative as part of a continuing series of companion audits being
conducted by the Office of Audit’s Small Business and Corporate Programs and Information
Systems Programs Business Units.




2
    48 C.F.R. ch. 1 (2005).


                                                                                                    2
                        The Revised Private Debt Collection Request for
                       Quotation Adequately Addressed Prior Deficiencies
                                in the Solicitation Methodology



Recommendations
We are making no recommendations in this report; however, key IRS management officials
reviewed it prior to issuance and agreed with the facts and finding presented.
Copies of this report are being sent to the IRS managers affected by the report. Please contact
me at (202) 622-8500 if you have questions or Daniel R. Devlin, Assistant Inspector General for
Audit (Headquarters Operations and Exempt Organizations Programs), at (202) 622-8500.




                                                                                              3
                                 The Revised Private Debt Collection Request for
                                Quotation Adequately Addressed Prior Deficiencies
                                          in the Solicitation Methodology




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Revised Request for Quotation and Associated Selection
          Documents Adequately Addressed the Deficiencies Cited by the
          United States Court of Federal Claims .........................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 6
          Appendix III – Report Distribution List .......................................................Page 7
                               The Revised Private Debt Collection Request for
                              Quotation Adequately Addressed Prior Deficiencies
                                        in the Solicitation Methodology




                                              Background

On October 22, 2004, President Bush signed the American Jobs Creation Act of 20041 that
created a new Section 6306 of the Internal Revenue Code to permit private collection agencies
(PCA) to help collect Federal tax debts. The purpose of the program is to help reduce the
significant and growing number of uncollectible cases and enable the Internal Revenue Service
(IRS) to better focus existing resources to address more difficult cases. Department of the
Treasury officials estimate that over the next several years the Private Debt Collection (PDC)
program, formerly the Collection Contract Support program, will result in approximately
$1 billion more in revenue.
According to the IRS, the initiative to use PCAs will:
      •    Help reduce gross tax accounts receivables to the IRS which as of September 2005 were
           $258 billion.
      •    Enable the IRS to focus its limited collection and enforcement resources on the most
           difficult cases and issues.
      •    Help maintain public confidence in the tax system.
The IRS issued a detailed Request for Quotation (RFQ) for solicitation of debt collection
services from PCAs listed on the General Services Administration Federal Supply Schedule in
support of the PDC program on April 25, 2005. The IRS planned to select three PCAs and begin
issuing cases in January 2006. However, this RFQ was canceled after the United States Court of
Federal Claims filed an order on July 25, 2005, informing the IRS it intended to enjoin the
solicitation. The order ruled that the IRS’ restriction of
the solicitation only to vendors with current Federal
Government debt collection task orders was arbitrary          . . . the United States Court of
and capricious. The IRS subsequently revised the RFQ        Federal    Claims . . . ruled that the
                                                                     IRS’ restriction of the
and reissued it on October 14, 2005. The IRS now                solicitation to vendors with
intends to begin delivering delinquent tax account cases       current Federal Government
to the selected PCAs by July 2006.                           debt collection task orders was
                                                                   arbitrary and capricious.
This limited-scope, follow-up audit focused on the IRS’
efforts to address the issues raised by the United States
Court of Federal Claims. We did not review the bid evaluations or the selection of the
contractors for this program; accordingly, we do not express an opinion on such.


1
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                               Page 1
                       The Revised Private Debt Collection Request for
                      Quotation Adequately Addressed Prior Deficiencies
                                in the Solicitation Methodology



This review was performed at the Small Business/Self-Employed Division in New Carrollton,
Maryland, in the Office of Filing and Payment Compliance, and at the Agency-Wide Shared
Services Division in Oxon Hill, Maryland, in the Office of Procurement Business Operations,
during the period November 2005 through February 2006. The audit was conducted in
accordance with Government Auditing Standards. This was a special, limited-scope audit that,
together with companion audits being conducted by the Office of Audit’s Small Business and
Corporate Programs and Information Systems Programs Business Units, provides coverage of a
key initiative for which the Treasury Inspector General for Tax Administration committed
resources as a high priority. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                       Page 2
                               The Revised Private Debt Collection Request for
                              Quotation Adequately Addressed Prior Deficiencies
                                        in the Solicitation Methodology




                                    Results of Review

The Revised Request for Quotation and Associated Selection
Documents Adequately Addressed the Deficiencies Cited by the
United States Court of Federal Claims
Overall, the revised RFQ adequately addressed the deficiencies cited by the United States Court
of Federal Claims. The IRS deleted the requirement that PCAs must have a current Federal
Government debt collection task order to be eligible for the solicitation. Our review did not
identify any other restrictions which would have unnecessarily limited the procurement process.
Further, the revised RFQ was reviewed by the IRS’ Office of Procurement Policy Quality
Assurance Branch and General Legal Services staff as required by IRS procedures for
acquisitions of this size. The purpose of these reviews is to ensure the legal sufficiency and
regulatory compliance of the RFQ.
Also, the scoring criteria and review methodology documented in the evaluation plan were
consistent with the revised RFQ and similarly did not contain any restrictions which would have
unnecessarily limited the procurement process. The selection evaluation factors and their
relative importance were clearly outlined in the revised RFQ and were consistent with the
Federal Acquisition Regulation.2
Specifically, the RFQ notes that in evaluating vendor proposals, the IRS will consider three key
factors: 1) relevant experience and past performance, 2) technical approach to satisfying the
requirements outlined in the RFQ, and 3) management plan
regarding the organization of staff and work to meet the RFQ         . . . the evaluation criteria and
requirements. The IRS ranked relevant experience and past           process, if rigorously followed,
performance as having the highest importance, which is               fairly applied, and adequately
                                                                    documented, should provide a
consistent with the extreme sensitivity of the PDC program.
                                                                    reasonable basis for selecting
The IRS ranked technical approach as having the next highest       highly qualified vendors that will
importance, followed by the management plan. In our                     meet the needs of the PDC
opinion, the evaluation criteria and process, if rigorously                       program.
followed, fairly applied, and adequately documented, should
provide a reasonable basis for selecting highly qualified
vendors that will meet the needs of the PDC program. We briefed the IRS on the results of our
review on February 2, 2006.



2
    48 C.F.R. ch. 1 (2005).
                                                                                             Page 3
                        The Revised Private Debt Collection Request for
                       Quotation Adequately Addressed Prior Deficiencies
                                 in the Solicitation Methodology



The IRS awarded contracts to three PCAs on March 9, 2006, under the terms of the revised RFQ.
The IRS informed us it planned to begin delivering delinquent tax account cases to the selected
PCAs by July 2006 as part of the first phase of the PDC program. The second phase will be the
full-scale implementation involving up to 12 PCAs. The IRS plans to issue another RFQ after
evaluating the results of the initial phase and begin the full-scale implementation in
January 2008. However, on March 23, 2006, the IRS announced it had issued stop-work orders
to the three PCAs after two unsuccessful bidders filed bid protests with the Government
Accountability Office. The IRS also announced that during the resolution of the protests it will
continue to prepare for debt collection work to begin.
The Treasury Inspector General for Tax Administration plans to continue evaluating the
implementation of this initiative as part of a continuing series of companion audits being
conducted by the Office of Audit’s Small Business and Corporate Programs and Information
Systems Programs Business Units.




                                                                                         Page 4
                               The Revised Private Debt Collection Request for
                              Quotation Adequately Addressed Prior Deficiencies
                                        in the Solicitation Methodology



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this limited-scope review was to determine whether the revised Request
for Quotation (RFQ) and associated procurement selection criteria adequately addressed the
deficiencies cited by the United States Court of Federal Claims. We did not review the bid
evaluations or contractor selections that were made. To accomplish our objective, we:
I.         Reviewed the Federal Acquisition Regulation1 regarding vendor selection procedures.
II.        Determined whether the IRS has taken effective actions to address concerns regarding the
           unnecessary restrictiveness of the original solicitation.
           A. Obtained the latest version of the RFQ and identified the changes from the initial
              version of the RFQ.
           B. Evaluated the changes made to the RFQ to address the concerns and deficiencies
              cited by the United States Court of Federal Claims on the prior RFQ.
           C. Analyzed the reason and justification for any other significant changes to the RFQ.
           D. Determined whether the revised RFQ and evaluation plan were reviewed by IRS legal
              counsel.
III.       Determined whether the scoring criteria and methodology to be used by the evaluation
           team was consistent with the revised RFQ and did not unnecessarily restrict the selection
           process.




1
    48 C.F.R. ch. 1 (2005).
                                                                                              Page 5
                       The Revised Private Debt Collection Request for
                      Quotation Adequately Addressed Prior Deficiencies
                                in the Solicitation Methodology



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Philip A. Smith, Lead Auditor
Thomas Dori, Senior Auditor
Chinita Coates, Auditor
Rashme Sawhney, Auditor




                                                                                       Page 6
                       The Revised Private Debt Collection Request for
                      Quotation Adequately Addressed Prior Deficiencies
                                in the Solicitation Methodology



                                                                     Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attention: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner for Operations Support OS
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Office of Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Office of Procurement OS:A:P




                                                                            Page 7
